No. 20-1453

IN THE
Supreme Court of the Anited States

 

Cal Cartage Transportation Express, LLC;
CCX2931, LLC; K&R Transportation California,
LLC; KRT2931; LLC; CMI Transportation, LLC,

CM2931, LLC,
Petitioners.
v.
The People of the State of California;
Superior Court of Los Angeles County,
Respondents.

 

CERTIFICATE OF COMPLIANCE

 

I hereby certify that I am a member in good standing of the bar of this Court and
that the Brief for The Minnesota Trucking Association, as Amicus Curiae
Supporting Petitioners complies with the typeface requirements of Supreme Court
Rule 33.1(b), being prepared in Century Schoolbook 12 point for text and 10 point for
footnotes, and this brief contains 3,644 words and complies with the word limitation

established by Rule 33.1(g)(x) of the Rules of this Court.

Nord Hunt

Dated: May 28, 2021
